20-

3

No.

IB
Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Bkaii l • n)fh{<-

— PETITIONER

(Your Name)

vs.

IM(/)

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

4l H i k) • Ri
(Address)

'Xjodj) Is y X4J ^6
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

1.

Is it lawful for a medical professional to injure a patient and just walk away?

2. Should a medical professional be held accountable for unreasonable treatment?
3. What should the remedy be when a patient is abused and injured?
4. Is there a standard of care instituted for medical professionals?
5. How can a strange eye examination that caused damage be recompensed?

LIST OF PARTIES

d

All parties appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

o$ Oder eS

APPENDIX B

ffltf
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

(JV1

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Indiana Law Journal: Recommended Citation Vandall, Frank J. (1983) "Applying Strict Liability to
Professionals: Economic and Legal Analysis," Indiana Law Journal; Vol.59;lss. 1, Article 2.
Judicial Policy and Quantitative Research: Indiana's Statute of Limitations for Medical Practitioners
Randall R. Bovberg, Promoting Quality and Preventing Malpractice: Assessing the Health
Security Act, 19 J. Health Pol. Pol'y & L. 207 (1994) (Clinton proposals in particular). Tort
Reform for medical providers, though not of the statute of ...Congressional Republicans' 1994-95
"Contract with American," has since been added as an amendment to budget bills...

STATUTES AND RULES
That the doctor owed the patient a duty of care;
That the doctor breached the duty to provide adequate care owed to the patient;
That the doctor's action caused the patient's injury; and
That the patient suffered an injury that resulted in damages.

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[Vf^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
.
,
Of reported at H ^
^ kffWa
Gao/H
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

to

JURISDICTION

[v/lbr cases from federal courts:
The date on which the United States Court of Appeals decided my case

was S* •'^ — 2-0_________

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

BILL OF RIGHTS
Patients' Rights
Right to appropriate/adequate medical care and humane treatment

STATEMENT Of THE CASE

i received cruei and unusual punishment during an eye examination by the optician. I have had my eyes
examined since the age of nine years. I am now sixty-three years of age and know that the examination
was not a normal one. I was yelled at by the optician and told that I could see. I thought that he doesn't
have good manners. Normally, I am told which process will follow and which eye will be examined, but,
not during this experience. The machine was set before my eyes, while both eyes were exposed. No
adjustments. I saw him looking at me and then with angst, he flipped a switch. The the brightest lights
ever where blinding my eyes for about fifteen seconds or so. During this period, I tried to remove
myself from the situation. I could not move the light or the machine from before my eyes. David Rich
did nothing or said nothing, but, he was present in the room. I was blinded by these bright lights. I was
in horror. My eyes hurt extremely badly; my head hurt when lifting my head. It made me sick. I had to
wear my sunglasses indoors as well as outside, and, I wore them at night. As my eyes improved, I could
bear to see television with sunglasses. After I could manage, I went to a specialist and was prescribed
gel for my eyes and an antibiotic. Initially, I was fearful to be examined. I had to tell about the previous
event. I received another tenure with the prescribed medications. My eyes are feeling better now, but.
they are not back to normal completely. Bright lights still bother my eyes. I struggled to type on the
computer because it seems bright. The United States District Court Southern District of Indiana,
Indianapolis Division states that my "...allegations do not indicate that this Court has subject matter
jurisdiction over this case..." I know this was wrong. I was violated and abused.

REASONS FOR GRANTING THE PETITION
The United States District Court Southern District of Indiana, Indianapolis Division states in part that my
...allegations do not indicate that this Court has subject matter jurisdiction over this case..."

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

WM
Date:

1^

